No. 20-779

 

 

IN THE

Supreme Court of the Anited States

ARGENTUM PHARMACEUTICALS LLC,

Petitioner,
v.

NOVARTIS PHARMACEUTICALS CORPORATION,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Federal Circuit

REPLY IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,985 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
